No.

&-/i5

In m t
Supreme Court of tfje ®niteti States
In re Gracie E. McBroom in Pro Se
Petitioner,
v.

HR DIRECTOR FRANKLIN COUNTY BOARD OF
ELECTIONS,
Respondent.
On Petition for a Corrected Petition for An Extraordinary
Writ/and Writ Mandamus to the United States Court of
Appeals for the Sixth Circuit
EMERGENCY PETITION FOR WRIT OF
MANDAMUS

i
!

In re Gracie E. McBroom,
Counsel of Record
636 Koebel Avenue
Columbus, Ohio 43207
Telephone: (614) 449-8555
Counsel for

ppf?eEivEb
DEC -4 2019
QfTIQF OF tmc r. i

CDI/

QUESTIONS PRESENTED
l.Was this a reasonable question in the mind of the State
Franklin County Court of Appeal on June 20, 1996 in the
Memorandum Decision in their agreement with the trial
court, stating, “since [Appellant], McBroom, had no legal
entitlement to appointment as a presiding judge, or even
a judge, under R.C. 3501.22, she had failed to set forth an
actionable claim against the Board of Elections, and the
complaint must be dismissed. ‘Yet, in the same
Memorandum Decision, on my hiring date being hired as
an employee on 1981, the trial court stated, “we agree
with the conclusion of the trial court that the broad
latitude provided to the FCBE, in making appointments
of precinct judges precludes any claim by [Appellant] that
she was in any way entitled to re-appointment to another
annual term as presiding judge; moreover, at the time
in question, R.C. 3501.22 made no mention at all of
any distinct appointment procedure for the
position of presiding judge, although the 1995
amendment to this statute does provide for this
position. 9 ii Could it be true that in 1981 there was no
such criteria as a distinct appointment according
to R.C. 3501.22? Does this set [Appellant] apart
from an employee as opposed to an independent
contractor?
2. Has Title VII of the Civil Rights Act of 1964 been
abolished from the law? If not, was it indicated in the
Petitioner’s case in the United States District Court and
the United States Court of Appeals for the Sixth Circuit
in their judgment in the case of McBroom?
3. Has the United States Court of Appeals decided an
important question of Federal law wrongfully that should
have been settled rightfully by that Court in favor of
McBroom?
*
_ _ __
4. Has the Court of Appeals decided an important federal
question of law in a way that conflicts with relevant
decision(s) of the U.S. Supreme Court?

11

LIST OF PARTIES
Applicant, Grade McBroom was the Plaintiff-Appellant
in the Court below. Respondents HR Director Franklin
County Board of Elections was the Defendant-Appellee in
the Court below. The Parties representing the Appellee in
the Court below were Attorneys Jeffrey C. Rogers and
Scott J. Gaugler.

Ill

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

TABLE OF CONTENTS

in

TABLE OF AUTHORITY

IV

PETITION FOR EXTRAORDINARY WRIT/
WRIT OF MANDAMUS.................................

1

JURISDICTION

1

OPINION BELOW

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED..........................

2

PRELIMINARY STATEMENT....................

3,4

STATEMENT OF THE CASE.....................

5

STATEMENT OF FACTS............... :..........

5-9

REASONS FOR GRANTING THE WRIT(S)

10

STATEMENT OF REVIEW ..........................

12

CONCLUSION ............................................

15

INDEX TO APPENDICES
Appendix A: UNITED STATES COURT OF APPEALS
................................................................. App. 1 - App. 11
Appendix B: UNITED STATES SOUTHERN DISTRICT
App. 12 - App. 70
COURT..
Appendix C: STATE COURT OF APPEALS OF OHIO
App. 71 - App. 74
TENTH DISTRICT
Appendix D: UNITED STATES EQUAL EMPLOYMENT
COMMISSION/ OHIO CIVIL RIGHTS COMMISSION
............................................................... Add. 74-Add. 79

IV

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Carter v. Petry
No. C-2-77-89 (S.D. Ohio. 1982)............
Chambers v. NASCO, Inc.,
501 U.S. 575, 580 (1946).............. .........
Cheney v. United States Dist. Court
542 U.S. 367, 380 (2004)................. .
Grano v. Department of Development
637 F.2d 1073, 1081 (6th Cir. 1980).....
Hazel-At Las Glass Co. v. Hartford-Empire Co.
322 U.S. 238, 245, 250 (1944)..........................
Janove v. Bancon
6 Ill .2d 245.249.218 N.E 2d 706, 708 (1953)
Korematsu v. United States

584 Supp v. 1406, 1419-20 (N.D. Ca (1944).....

10
4
12
10
4
10
3

Maryland v. Soper
12
270 U.S.C. (1926)...................................................
Roche v. Evaporated Milk Ass’n
12
319 U.S. 21, 22 (1943)...........................................
Universal Oil Product Co. v. Root Refining Co.,
4
328 U.S. 575, 580 (1946).......................................
Wilson v. Moore
13 Ill. App.3d 632, 301 N.E.2d 39 (1st Dist. 1973))... 14
STATUTES AND OTHERS

28 U.S.C. § 1257(a)..... .......

1

42 U.S.C. § 2000 (e) 5 (f) (1) ..

7,9

U.S. Cont. art I, 4..............

2

28 U.S.C. § 1651 (a)............

2

1
PETITION FOR EXTRAORDINARY WRIT/WRIT OF
MANDAMUS
Applicant, Gracie McBroom, respectfully petitions this
Court for an extraordinary writ/writ of mandamus to
review the judgment of the United States Court of Appeals
for the Sixth Circuit in this case.
OPINION BELOW
The unpublished opinion of the Tenth District State
Court of Appeals was not reported but has been
reproduced in appendix hereto in opinion at app. C.
The unpublished opinion of the Sixth Circuit was not
reported but has been reproduced in the appendix hereto in
the opinion at App. C. Court of Appeals of the Sixth
Circuit denied a timely Motion for Rehearing in an
unpublished Order April 14, 2015. A copy of the order is
attached hereto in the Appendix at App. A. The opinion of
the District Court for the Southern District of Ohio was
reported January 10, 2014, was issued in McBroom v. HR
Director Franklin County Board of Elections, but has been
reproduced at App. 25 thru App. 41. Reconsideration denied
on April 4, 2015. On December 4, 2018, Applicant asked
the United States Court of Appeals for rehearing. They
stated that this Court affirmed the grant of summary
judgment for the [Defendant] in an order dated January 21,
2015, panel judges denied rehearing April 22, 2015. Also,
on January 28, 2019, Appellant requested a new appeal to
reopen the case based on new evidence The U.S. Court of
Appeals stated, “the case is now closed, and you should
generally expect that no further correspondence will be
accepted. As such, please find your letter returned unfiled
and without ruling. “
JURISDICTION
This Court has jurisdiction to consider this case
pursuant to 28 U. S. C. 1257 (a).

2.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Cont. art. I § 4.
The Supreme Court and all courts established by act of
Congress may issue all writs necessary or appropriate in
aid of their respective jurisdictions and agreeable to the
usages and principles of law.
The writ of mandamus is a common law writ that is
preserved for the Supreme Court by the All Writs Act, 28
U.S.C. § 1651 (a). (The Supreme Court. . . may issue all
writs necessary or appropriate in aid of. . . [its]
jurisdiction and agreeable to the usage and principles of
law.”)

The Fourteenth Amendment to the United States
Constitution provides in relevant part: “No State shall
deprive any person of life, liberty, or property without due
process of law. “ 28 U.S.C. § 1391 (B) (2).
Section 1391 (B) (2) of Title 28 of the United States
Code governing venue, provides that a civil action may be
brought in “a judicial district in which a substantial part of
the events of omissions giving rise to the claim occurred, or
a substantial part of property that is the subject of the
action is situated.”
STATUTES AND RULES
Section 4112.02 of the Revised Code - Prohibits
discriminatory practices by reason of race and color (Ohio
Civil Rights Laws & Rules Annotated, (1989).
OTHER 710 (ND Ohio 1989), Reeves v. Digital Equipment.
710 FSupp 675 (ND Ohio 1989) Reeves v. Digital
Equipment Corp. A prima facie case of racial
Discrimination outlawed by 42 USC 1981 and 2000e5(B) is
made by proof the Applicant belongs to a minority race, the
Applicant was treated differently than a similarly situated
white person in the Court system, and the reason for the
difference in treatment was the Applicant’s race and color.

3.

PRELIMINARY STATEMENT
The writ of mandamus has come before this Court
infrequently. When it has however, the Court has
uniformly upheld its availability under the All Writs Act
to remedy “errors of the most fundamental character.
Morgan, 345 United States at 512, quoting United States
v. Mayer 235 U.S. 55, 68 (1914); Korematsu v. United
States, 584 F. Supp. 1406, 1419-20 (N.D. Ca. 1984).
All federal lower courts turned Applicant Case down. The
Case is good and lower federal courts made errors.
Petitioner do have grounds for Relief and all the other
courts were wrong in not seeing that this case is good and
they were wrong in not seeing that they were wrong. The
Ground for Relief is that this Court oversee this Case.
(A) This Petition will show how the writ of mandamus will
be in aid of the Court’s appellate jurisdiction in terms
of the reason why I deserve relief in this Court with
granting the writ of mandamus. The refusal by the
United States District Court and the United States
Court of Appeals shall cause this Court to grant relief.
This caused Petitioner to ask this court for exceptional
circumstances because there is no other way to get
relief and this is the reason why I am turning to this
court in using Rule 20, extraordinary writ/ writ of
mandamus for help. If not, I will suffered irreparable
damages if I do not get the writ of mandamus granted
by this Court. Exceptional circumstances pertaining
to time, if I do not get this relief now there is no way to
make up for it. The United States District Court and
the Court of Appeals had the ability to exercise
Jurisdiction but they did not exercise Jurisdiction
- correctly—--------------------------------------------------------Adequate relief cannot be obtained in any other form or
from any other court because any other court will not
accept a motion to reconsider according to the Opinion
and Order of Judge algenon L. Marbley.

4.
Alternatively, as the Applicant notes, the Court may treat
the Petition as a Petition or motion for equitable relief
filed with the Court in the McBroom case itself. The
Court like other federal courts, has the inherent equitable
power “to set aside fraudulently begotten judgments”
and restore the parties to the position they would have
enjoyed in absence of the fraud. Hazel-Atlas Glass Co. v.
Hartford-Empire Co., 322 U.S. 238, 245, 250 (1944). See
also Chambers v. NASCO, Inc., 501 U.S. 32, 44-45 (1991);
Universal Oil Products Co. v. Root Refining Co., 328 U.S.
575, 580 (1946). The Petition details the bases upon
which the Court has jurisdiction to act and the reasons it
should act.
A Petition for a writ of mandamus is surely a very rare
occurrence in the life of the Supreme Court Clerk’s Office.
Petitioner have, moreover, advanced a substantial and good
faith basis for invoking this Court’s jurisdiction. The United
States Court of Appeals on January 28, 2019 when
Appellate requested a review from Judge Guy Cole who he
in turned gave the request to Susan Roger, Chief Deputy
Clerk for review she had Applicant resort back to April
2015 stating the case is now closed and a copy of the order
is attached. No other court will accept a motion to
reconsider and that is why I request an extraordinary
writ/writ of mandamus to this Court for help.

5.
STATEMENT OF THE CASE
This petition is filed pursuant to the authority to issue an
extraordinary writ/writ of mandamus vested in this court
provisions of 28 U.S.C.A. § 1651(a) and Rule 20 of this
court, in order to prevent enforcement by the United States
Court of Appeals, Respondent(s) Circuit Judges Batchelder,
Gibbons, and Rogers Respondent of Rehearing denied of
April 22, 2015 and the Respondent, of denied Motion of
April 4, 2014 Honorable Algenon L. Marbley, a Judge of the
United States District Court for the Southern District of
Ohio, Eastern Division, Respondent of April 4, 2014 in the
case of In re Petitioner v. HR Director Franklin County
Board of Elections, being Civil Action No. 14-3176 of such
district and compel Respondent to vacate the order for the
reason that Respondent had no power to enter the same, as
is more fully alleged and argued below. A copy of the order
of January 10, 2014 in the United States District Court and
the denial for reconsideration denied and closed on April 4,
2014, as well as the order dated January 21, 2015 from the
United States Court of Appeals and the rehearing denied
April 22, 2015. A copy of the orders are included in the
Appendix to this petition. The new evidence Applicant
requested to the United States Court of Appeals and the
U.S. District Court to reopen the case in their Order(s)
rendered by Respondent in connection therewith.
There are also included in the Appendixes the following
papers which are essential to an understanding of the
instant petition.
______STATEMENT OF THE FACTS
I.

THE OHIO STATE COURT ACTION

A. The Commencement of the Ohio Action

6.
In the Memorandum Decision rendered on June 20, 1996,
Applicant filed an Appeal in the State Court of Appeals of
Ohio, Tenth Appellate District from the Decision of the
Ohio Franklin County Court of Common Pleas. In which
this Court dismissed Applicant case, for failure to state a
claim under Civ.R. 12 (B) (6). This Court affirmed the
Judgment of the lower trial court. On the one hand, in the
Memorandum Decision stated, “the trial court granted the
Board of Elections’ motion, pointing out that precinct
judges are appointed by the Board of Elections on an
annual basis under R.C. 3501.22, which places no
obligation upon the Board of Election to re-appoint prior
year appointees to these position. Yet, Appellant being
hired by the Franklin County Board of Election on
November 1981, as an Employee and not as an Independent
Contractor in which Title VII does not cover. The
Memorandum Decision further goes on to state that, ‘We
agree with the conclusion of the trial court that the broad
latitude provided to the Board of Elections in making
appointments of precinct judges precludes any claim by
appellant that she was in any way entitled to re­
appointment to another annual term as presiding judge;
moreover, at the time in question, R.C. 3501.22 made
no mention at all of any distinct appointment
procedure for the position of presiding judge,
although the 1995 amendment to this statute does
provide for this position.
Appellant was employed for many years by the Board
of Elections as a poll-worker. For some thirteen
years prior to the November election of 1994,
appellant worked as a presiding judge at a polling
place ... See Appendix “C. “
When Applicant was hired by the HR Franklin County
Board of Elections on November, 1981, McBroom was
issued an IRS form as an Employee as follows:

7.
November 21, 1994
“On behalf of the board members Deputy Director,
staff and myself I would like to thank you for a
splendid job with respect to the November 8,1994
General Elections.
As you may be aware beginning January 1,1995
there will no longer be any tax deductions from
precinct worker pay checks ...
Franklin County Board of Elections

“sr
Jack M. McKitrick, Director
This present case is quite similar to the case that was filed
m 19 -.
Applicant was given a right to sue from the Equal
Employment Opportunity Commission and this lawsuit
commenced. The Petitioner filed the above-styled action
against HR Franklin Board of Elections for claims of illegal
discriminatory practice relating to employment based on
McBroom’s race and color prior to November, 2011 and
continuing therefrom. This is a civil case governed under
federal law Title VII United States Code, Section 42 U.S.C.
$ 2000 5(f) (1).
Under consideration for this Court to review is that the
United States Court of Appeals affirmed the District
Court’s judgment without giving any regards for the filing
of Applicant’s default judgment. On November 21, 2012,
Applicant through the district court filed a subpoena to the
Respondent’s Counsel stating that a Summons in a Civil
Action had been filed against the Director Franklin County
BoardofiElection:----- -----------------------------------------------The subpoena stated: “A lawsuit has been filed against
you. Within 21 days after service of this summons on you
(not counting the day you received it -...)
You must serve on the IPlaintiffl an answer to the attached

8.
. .. If you fail to respond, judgment by default will
be entered against you for the relief demanded in
the Complaint. “ App. A 7, 8.
Norah McCann King, United States Magistrate
Judge, stated her Order in Appendix B, “this
[Defendant] was granted 45 days after service of
process to respond to the Complaint. Order, Doc. No.
7, p2. The time for responding has passed with no
appearance on behalf of response to the Complaint
by the remaining [Defendant].
[Defendant HR Director Franklin County Board of
Elections is therefore ORDERED to report on the
status of this case within fourteen (14) days.
Then the Magistrate Norah McCann King not only gave
the Respondent 45 days plus an additional 14 days to
respond she untruthfully stated, “Service of Process was
apparently effected on [Defendant] HR Director Franklin
County Board of Elections on December 7, 2012.
The Service of Process was effected on the Defendant
on November 26, 2012 and the date of filing was
November 21, 2012. The date of filing of the
summons was not effective on December 7, 2012, as
she stated.
Look how many days was given by the U.S. Court of
Appeals and Judge Algenon L. Marbley for the
Respondent to file an Answer to the Applicant
Complaint agreement.
When [Defendant] H.R. Director failed to answer in
the allotted 45 days, the Magistrate Judge, On
February 14, 2013, ordered [Defendant] to report on
the status of the case. (Doc. 12, and Appendix B).
[Defendant] did so, on February 28, 2013 (Doc. 13)
and moved the next day for an extension of time to
file his Answer (Doc. 14). The Court granted this
Answer on March 4, 2013.

9.
Nevertheless [Plaintiff] moved for default judgment
on March 13, 2013 (Doc. 19).
On May 15, 2013 [Plaintiff] filed for “Motion for
Summary Judgment (Doc. 33). That Motion
anticipated that [Defendant] filed a motion for
summary judgment, and argues that it should be
denied. It does not argue for judgment on the
pleadings, nor does it argue for summary judgment
in [Plaintiffs] favor. On June 6, 2013, [Defendant]
responded, and moved for summary judgment (Doc.
41). The case was dismissed on June 10, 2013 in favor
of the [Defendant]. The Court agreed with the
[Defendant] stating [Plaintiff] was an Independent
contractor.
A copy of Judge Algenon L. Marbley’s Opinion and Order
for Review in the Ohio Action is attached as Appendix B.
B. Applicant Seek Relief in the United State
Supreme Court.
II.
THE FEDERAL ACTION
C. Applicant Herein Commence A substantively
Identical Actions in the U.S. Court of Appeals
Months after Petitioner filed the Ohio Action
This appeal had been journalize and docket as case
number 14-3176. This is an action instituted under the
provision of 42 U.S.C. § 2000e — (a) (1), 42 U.S.C. §2000e2
(a) through (d), Title VII of the Civil Rights act of 1964,
which incorporates 42 U.S.C. §2000e-5 (f) 1, for review of
the unlawful deceptive final decision of Judge Algenon L.
Marbley and Magistrate Judge King denying a fair
outcome for [Appellant] Gracie E. McBroom because this
Court concludes that there is no substantial support for
[Appellee’s] decision, [Appellant’s] decision must be
reverse and recover damages resulting from
Discrimination of Employment as to the specifications of
the Equal Employment Opportunity Commission.
It is well established in the court and elsewhere that

10.
Petitioner claiming disparate treatment on account of race
must prove “by a preponderance of the evidence that the
Respondent intentionally discriminated against Pier].
Grano v. Department 637 F 2d 1073 U.S. 32, 335-36
15 (1977): Carter v. Petrv. No. C-2-7-89, Opinion and Order
(S.D. Ohio June 29, 1982.
REASONS FOR GRANTING THE WRIT(S)
In the present case, Robena Hawkins, who is Caucasians
was put in the location where McBroom was working as a
Paper Judge by Mary Hackett, Manager, Precinct Election
Official and DeborahCotner, Precinct Election
Coordinator, both Caucasians required McBroom to train
Robena Hawkins. Petitioner was unaware that McBroom
was training Hawkins for the position that McBroom held.
Mary Hackett and Deborah Cotner stated that McBroom
had failed Respondent’s test and they wanted someone
with better skill sets than McBroom. Prior to Petitioner
removal from the position, McBroom was never made
aware that there was a problem with my performance or
my skills. [Plaintiff passed Respondents test and was
allowed to work the 2010 and 2011 elections as a presiding
judge.
‘Work History of Robena Hawkins: Last worked on
11/8/2011. Robena Hawkins had only one session of
training as a Presiding Judge as well one term as a
Presiding Judge.
2012/03/06 DEM-PJ-VOTING LOCATION
MANAGER
2011/11/08 PAPER BALLOT JUDGE
2010/05/04 VOTING MACHINE JUDGE
2009/08/0 VOTING MACHINE JUDGE
2008/03/05 ZREPUBLIAN - NEW ROSTER
JUDGE
Also, the Franklin County Board of Elections mailed
to the Ohio Civil Right Commission the work history of
Robena Hawkin, McBroom’s replacement.

11.
According to her record the Board of Elections gave
Hawkins years of class Work that does not correspond
With the years that the Election Board said she worked.
Below is listed the years of employment of classes that
the Franklin County Board of Elections stated that
Hawkins attended which are not included in the Work
History:
(1)2007/10/16; (2) 2006/10/25; (3) 2006/05/01; (4)
2006/04/25; (5) 2005/11/03; (6) 2005/04/28; (7)
2004/10/14; (8) 2004/102/26; (9) 2002/10/17;
(10) 2002/05/06; (11) 2001/11/05;
(12) 2000/10/19; (13) 2000/03/06. c a
Applicant have a Bachelors in Sociology, a Master’s of
Science in Business and Industrial Counseling am certified
as a Presiding Judge and have been awarded a Certificate
of Appreciation for my good work as a Voting Location
Manager. Applicant was hired by the Franklin County
Board of Election November, 1981 as an Employee. The
Franklin County Board of Election has sent Applicant
through many years of extensive management training and
given Applicant a Presiding Judge Certified Card in which
Applicant have earned. As well as the HR Director
Franklin County Board of Elections put two poll workers to
work in Applicant’s precinct that had absolutely no
experience nor training as Voting Location Manager and
have Applicant train those persons to know the procedure
of the job of one to take Applicant place.
While, HR Director Franklin County Board of
Elections told all those lies about [Plaintiff] even to
the point of saying, [“Charging Party] based on her
performance, it is standard practice to place her in a
position of less responsibility. Of further note,
[Charging Party] was placed at a different location
to avoid any potential embarrassment.
The issues involved in the present proceedings are of
exceptional character and of great public importance in
that in the Ohio Action, the Ohio Appellate Courts’ Decision

12.
on important questions of Ohio Constitutional law will have
significant impact on the scoop of discoverable and
admissible evidence when the stay is lifted by this Court
and the case proceeds.
STANDARD OF REVIEW
The Supreme Court has the power to “issue writs
necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of
law.” 28 U.S.C. § 1651(a). To obtain a writ of mandamus,
the applicant must demonstrate that he has “no other
adequate means attain the relief he desires.” Cheney v.
United States Dist. Court, 542 U.S. 367, 380 (2004).
The Applicant must demonstrate that the Applicant’ right,
to the writ is “clear and indisputable,” Id at 381. Finally,
the Applicant must demonstrate that the writ is otherwise
appropriate under the circumstances.
A writ is appropriate in matters where the Applicant can
demonstrate a “judicial usurpation of power” or clear abuse
of discretion. See id. At 380 (citations and quotations
omitted); see also Roche v. Evaporated Milk Ass’n, 319 U.S.
21, 22 (1943). (“The traditional use of the writ in aid of
Appellate jurisdiction both at common law and in the
federal courts has been to confine an inferior court to a
lawful exercise of its prescribed jurisdiction or to compel it
to exercise its authority when it is its duty to do so.”) This
Court has issued writs to restrain federal district courts
from intruding into areas involving delicate federal-state
relations. Id. At 381; see also Maryland v. Soper, 270 U.S.
C. (1926). Applicant is asking this court for an
extraordinary writ/writ of mandamus as a Remedy for
“Fraud on the Court.” As well as to vacate the decision and
mandate of the lower federal court
Petitioner’s Complaint was filed by U.S. Marshal as stated
on November 20, 2012, Defendant’s did not answer until
Mar^h d 9.01.3 nnrl nrilv hv OrHprprl fmm the Maoistrate

13.

stricken by Magistrate King. Defendant filed the
Memorandum Contra and Motion to Dismiss Plaintiffs
Complaint on June 10, 2013, which was Granted by the
Court. How can the District Court and the Court of Appeals
Dismiss Plaintiffs Complaint when the Complaint was filed on
November 21,2012, and received on November 26,2012. The
Defendant did not answer until four months later and was
granted the Motion to Dismiss on June 10,2013. Then
Magistrate Judge King stated in the Order of 02/14/ 2013,
“Service of process was apparently effected on [defendant] on
December 4,2012.” App. B15.
THERE ARE NO OTHER ADEQUATE MEANS
TO OBTAIN THE RELIEF APPLICANT
SEEK
Applicant do not have any adequate alternative means to
obtain the relief from judgment she seek because adequate
relief cannot be obtained in any other form or from any
other court because any other court will not accept a motion
to reconsider.
There is another reason for this Court to Grant Applicant
relief from judgment.
The United States Court of Appeals did not allowed
Applicant ■ %le a response to [Defendant’s] Answer. This is
a manifestation of injustice.
The United States Court of Appeals did not addressed the
unlawful employment practice in this case; (2) the Appellee
had lost all rights in defending this case because they did
not respond to Applicant’s Complaint in timely manner.
The Complaint was filed on November 21, 2012 and
appellee did not answer the Complaint until March*} ,
2013 which was four months later; (3) the [Appellee]
Answer was invalid because the Answer was not served by
proof of service to Applicant; (4) the motion signed by Judge
Marbley on January 10, 2014, as well as the United States
Court of Appeal Orders were as well of nullity for granting
all this mess of [Defendant].

14.
Not knowing whether the [Defendant] had answer
[Plaintiffs] Complaint or not, [Plaintiff! called the Court
and spoke with the Clerk. [Plaintiff! asked if the
[Defendant] had answered [Plaintiffs] Complaint.
[Plaintiff] was told by the Clerk that [Defendant] had
responded with the Answer. On March1! , 2013, the
[Defendant] filed an answer. [Plaintiff] was not notified
by the [Defendant] with a Proof of Service regarding
receiving the Answer. [Plaintiff] requested the Clerk of
the United States District Court to please send me a copy
of the [Defendant’s] Answer. Appendix “B”.
Where service of process was not made pursuant to
Statute and the Supreme Court Rules, Janove v. Bacon 6
Ill.2d 245, 249, 218 N.E. 2d 706, 708 (1953) is not given
to all parties by the movant that Answer is of nullity.
Wilson v. Moore, 13 Ill. App.3d 632, 301 N.E.2d 39 (1st
Dist. (1973)).
[Plaintiff] filed a default judgment for the untimeliness of
[Defendant’s] Answer to [Plaintiffs] Complaint. The
federal courts ignored the motion for [Plaintiffs] default
judgment for [Defendant] to pay the amount [Plaintiff]
requested in the Complaint of November 21, 2012.
[Plaintiff] filed a response to the [Defendant’s] Answer.
[Plaintiff] response was stricken from the record because
the Judge stated the Fed.R.C.P. do not permit a response
to an answer.
The record shows that there additional inconsistencies
between the [Defendant], the United States District Court
and the United States Court of Appeals between
submitted testimonies and who signed those testimonies.
It is the Applicant’s position that where a Respondent’s
assertions are inconsistent in themselves and as to the
evidence, McBroom must infer that the inconsistencies
are the result of an attempt by Respondent to cover up a
violation of Title VII. Further an inference of
discrimination must be drawn from the totality of
circumstances. Whereas one factor standing alone might
not warrant,, or nullifv. an inference of discrimination, a

15.

CONCLUSION
For the foregoing reasons, stated above the petition
for extraordinary writ/ writ of mandamus should be
granted.

+: •
{ .

/

M

ft

i *

Respectfully submitted,
S/Gracie E. McBroom
Counsel of Record
636 Koebel Avenue
Columbus, Ohio 43207
Counsel for the Applicant
Date:

9-27-2019

.

APPENDIX A

App. 1
No. 14-3176
FILED JUN 23,2014
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
GRACIE E. MCBROOM,
Plaintiff-Appellant,
v.
HR DIRECTOR, FRANKLIN COUNTY BOARD
OF ELECTIONS,
ORDER
Defendant-Appellee.
Before: BATCHELDER, Chief Judge; GILMAN and
GRIFFIN, Circuit Judges.
This matter is before the court upon consideration
of motion of the appellee to dismiss this appeal for lack
of jurisdiction. The appellee argues that the notice of
appeal was untimely filed.
The judgment of the district court was entered on
January 10, 2014. The motion for Reconsideration file
on January 15, 2014, tolled the appeal period because
it was filed within twenty-eight days of entry of
judgment. See Fed. R. Civ. P. 59(e) and Fed. R. App. P.
4(a)(4). The notice of appeal filed on February 21,
2014, became effective on April 4, 2014, when the
district court denied the motion for reconsideration.
_See Fed. R. App. P. 4(a)(4)(B) (i).________________ .__
Accordingly, the motion to dismiss is denied.

App. 2

ENTERED BY ORDER OF THE COURT
“sr

Deborah S. Hunt, Clerk

App. 3
No. 14-3176
FILED, JAN. 21,2015
DEBORAH S. HUNT, Clerk
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
GRACIE E. MCBROOM,
ON APPEALS FROM
THE UNITED STATES
v.
HR DIRECTOR, FRANKLIN
DISTRICT COURT
COUNTY BOARD OF ELECTIONS FOR THE SOUTH­
ERN DISTRICT
OF OHIO
Defendant-Appellee.
Plaintiff-Appellant

ORDER
Before: BATCHELDER, GIBBONS, and ROGERS,
Circuit Judges.
Gracie E. McBroom, an Ohio citizen, appeals pro se
the summary judgment for defendant in an
employment discrimination action she filed under Title
VII of the Civil Rights Act of 1964. This case has been
referred to a panel of the court pursuant to Federal
Rule of Appellate Procedure 34(a)(2)(C). Upon
examination, this panel unanimously agrees that oral
argument is not needed. Fed. R. App. P. 34(a).
McBroom’s complaint indicated that she had
worked as a precinct official since 1981 and had been
demoted-in-201-l-based-on-her-race-and-in-retaliation—
for a similar suit she had filed in 1995. The district
court denied McBroom’s motion for a default
judgment and granted summary judgment to
defendant on the ground that McBroom was
not: ain pmnlnvpp nrntpptprl V»v Titlp VTT

Tn lipr hripf

App. 4
answer the complaint and that she was entitled to a
default judgment.
An order denying a motion for default judgment is
reviewed for an abuse of discretion. Lincoln v. Comm’r
of Soc. Sec. 62 F. App’x 93, 94 (6* Cir. 2003). In this
case, the Magistrate Judge ordered on November 21,
2012, that defendant files a response to the complaint
within forty-five days. When that time passed without
a response, the magistrate judge ordered on February
14, 2013, that defendant responded within fourteen
days. Defendant did respond and, on March 1, filed a
motion for an extension of time and an answer. The
magistrate judge granted the motion for an extension
and filed the answer on March 4. On March 13,
McBroom filed a motion for default Judgment, which
the district court denied. Because the defendant
answered the complaint within the extension of
time granted by the magistrate judge, there was no
abuse of discretion by the district court in denying the
motion for default judgment. Id. at 95.
McBroom fails to raise any argument as to why
defendant was not entitled to summary judgment on
the ground that she was not an employee protected by
Title VII. See Sah v. Deaconess Hosp. 355 F.3d 496,
499 (6th Cir. 2004).
Accordingly, the district court’s judgment is
affirmed. Fed. R. App. P. 34(a)(2)(C).

ENTERED BY ORDER OF THE COURT
“s/

Deborah S. Hunt, Clerk

